CAPITAL CASE

EXECUTION SCHEDULED FOR 6:00 P.M. (EDT) SEPTEMBER 22, 2020
No. __________
_________________
IN THE SUPREME COURT OF THE UNITED STATES
_________________
WILLIAM EMMETT LECROY, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
___________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
___________________________________________

TABLE OF APPENDICES
Appendix Description
A
B
C

D

App. Page
Numbers
1a-12a

Opinion, William Emmett LeCroy, Jr., v. United States of
America, No. 20-12253-P, 2020 WL 5542483
(11th Cir. Sept. 16, 2020)
Order, Doc. 601, United States of America v. LeCroy, No.
13a-31a
2:02-CR-38-RWS-SSC, No. 2:08-cv-83-RWS
(N.D. Ga. Sept. 4, 2020)
Order on Appellant’s Motion for Stay of Execution
32aPending En Banc Review, William Emmett LeCroy, Jr., v.
United States of America, No. 20-12253-P
(11th Cir. Sept. 21, 2020)
Order on Appellant’s Petition for Rehearing En Banc,
33a
William Emmett LeCroy, Jr., v. United States of America,
No. 20-12253-P, 2020 WL 5542483 (11th Cir. Sept. 22,
2020)

Case: 20-13353

Date Filed: 09/16/2020

Page: 1 of 12

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-13353
________________________
D.C. Docket No. 2:02-cr-00038-RWS-JCF-1

WILLIAM EMMETT LECROY, JR.,
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(September 16, 2020)
Before WILLIAM PRYOR, Chief Judge, NEWSOM, and LUCK, Circuit Judges.
NEWSOM, Circuit Judge:

Appendix A

1a

Case: 20-13353

Date Filed: 09/16/2020

Page: 2 of 12

William Emmett LeCroy, Jr. is a federal death-row inmate. The Director of
the Bureau of Prisons has scheduled LeCroy’s execution for September 22, 2020.
LeCroy moved the district court to postpone his execution date by several months
on the ground that two of his three appointed lawyers are currently unable to meet
with him due to circumstances caused by COVID-19. The district court denied the
motion, and LeCroy now appeals.
We hold that neither the district court nor this Court has the authority to
postpone LeCroy’s execution—at least absent a demonstration that a stay is
warranted, a showing that LeCroy has not attempted to make. Moreover, and in
any event, we hold that LeCroy is not entitled to relief on the merits. We therefore
affirm the district court’s ruling.
I
The following facts are undisputed. Less than two months after being
released from prior terms of state and federal imprisonment, LeCroy bound, raped,
and killed Joann Tiesler in Cherry Log, Georgia. United States v. LeCroy, 441
F.3d 914, 918–20 (11th Cir. 2006). After absconding in Tiesler’s car, LeCroy was
captured in Minnesota, just shy of the Canadian border. Id. at 920. In the car,
police found a knife stained with Tiesler’s blood and other evidence related to the
killing. Id. LeCroy was indicted in the United States District Court for the
Northern District of Georgia for taking a motor vehicle by force, violence, and
2
Appendix A

2a

Case: 20-13353

Date Filed: 09/16/2020

Page: 3 of 12

intimidation resulting in Tiesler’s death, in violation of 18 U.S.C. § 2119(3). Id. A
superseding indictment added special death-eligibility allegations. Id. At the
conclusion of the sentencing phase, the jury returned a death sentence. Id.
LeCroy was remanded to federal custody at the United States Penitentiary in Terre
Haute, Indiana. Id.
This Court unanimously affirmed LeCroy’s conviction and sentence on
direct appeal, see id. at 918, and the Supreme Court denied his petition for writ of
certiorari, see LeCroy v. United States, 550 U.S. 905 (2007). LeCroy thereafter
moved the district court for the appointment of counsel; the court granted the
motion and appointed John R. Martin and Sandra L. Michaels. LeCroy later filed a
motion to vacate, set aside, or correct his sentence under 28 U.S.C. § 2255. The
district court denied the motion, this Court again unanimously affirmed, see
LeCroy v. United States, 739 F.3d 1297 (11th Cir. 2014), and the Supreme Court
again denied LeCroy’s petition for writ of certiorari, see LeCroy v. United States,
575 U.S. 904 (2015). In 2019, the district court appointed LeCroy a third lawyer,
Stephen Ferrell of Federal Defender Services of Eastern Tennessee, Inc.
On July 31, 2020, LeCroy and his attorneys received notice that the Bureau
had set LeCroy’s execution date for September 22, 2020. More than three weeks
later, on August 24, 2020, LeCroy moved to postpone the execution date by
several months—i.e., until sometime in Spring 2021—on the ground that two of
3
Appendix A

3a

Case: 20-13353

Date Filed: 09/16/2020

Page: 4 of 12

his three appointed lawyers, Martin and Michaels, were uniquely affected by
COVID-19, could not travel to visit him, and accordingly could not (1) properly
assist in the preparation and filing of a clemency petition and (2) attend his
execution in person.
The district court denied LeCroy’s motion. In short, it concluded that if it
were “amenable to LeCroy’s request and inclined to ‘reset’ or ‘modify’ the date of
execution, granting the requested relief (i.e., continue or postpone execution)
would amount to a stay.” The court further explained that LeCroy could not
invoke the All Writs Act, 28 U.S.C. § 1651, as a means of circumventing the
traditional stay requirements.
LeCroy now appeals.
II
We must first consider the source and scope of the courts’ authority to
postpone LeCroy’s execution date. The Code of Federal Regulations vests the
Bureau Director with broad authority and discretion to set execution dates as an
initial matter:
(a) Except to the extent a court orders otherwise, a sentence of death shall
be executed:
(1) On a date and at a time designated by the Director of the Federal
Bureau of Prisons, which date shall be no sooner that 60 days
from the entry of the judgment of death. If the date designated
for execution passes by reason of a stay of execution, then a new
4
Appendix A

4a

Case: 20-13353

Date Filed: 09/16/2020

Page: 5 of 12

date shall be designated promptly by the Director of the Federal
Bureau of Prisons when the stay is lifted[.]
28 C.F.R. § 26.3(a)(1). Section 26.4 further provides:
Except to the extent a court orders otherwise:
(a) The Warden of the designated institution shall notify the prisoner
under sentence of death of the date designated for execution at least
20 days in advance, except when the date follows a postponement
of fewer than 20 days of a previously scheduled and noticed date of
execution, in which case the Warden shall notify the prisoner as
soon as possible.
Here, the Director has set LeCroy’s execution for September 22, 2020. In
his motion, LeCroy sought to postpone that date—in particular, he “ask[ed] that
the Court schedule [his] execution for a date certain in Spring 2021 . . . .” Even so,
LeCroy insisted in the district court—and continues to maintain—that his was “not
a Motion for a Stay of Execution or an Injunction.”
We disagree. Although LeCroy’s motion carefully avoided using the word
“stay”—instead repeatedly asking the district court to “reset” or “modify” his
execution date—LeCroy has failed to explain how his pleading can sensibly be
understood as anything other than a request to stay his execution. As the Supreme
Court has explained, a stay operates by “halting or postponing some portion of the
proceeding, or . . . temporarily divesting an order of enforceability.” Nken v.
Holder, 556 U.S. 418, 428 (2009); see also Stay, BLACK’S LAW DICTIONARY (11th
ed. 2019) (defining “stay” as the “postponement or halting of a proceeding,
5
Appendix A

5a

Case: 20-13353

Date Filed: 09/16/2020

Page: 6 of 12

judgment, or the like” and an “order to suspend all or part of a judicial proceeding
or a judgment resulting from that proceeding”). That is precisely the relief that
LeCroy seeks. A stay by any other means is still a stay.
A stay of execution is an equitable remedy that “is not available as a matter
of right.” Hill v. McDonough, 547 U.S. 573, 584 (2006). Rather, under our
precedent, a court may issue a stay of execution “only if [the movant] establishes
that (1) he has a substantial likelihood of success on the merits; (2) he will suffer
irreparable injury unless the injunction issues; (3) the stay would not substantially
harm the other litigant; and (4) if issued, the injunction would not be adverse to the
public interest.” Price v. Comm’r, Ala. Dep’t of Corr., 920 F.3d 1317, 1323 (11th
Cir. 2019) (citations and quotation marks omitted). LeCroy has not even attempted
to satisfy—and indeed, has sworn off—these requirements.
Nor does LeCroy identify any other source of authority—statutory,
regulatory, or otherwise—that would empower a federal court to “reset” or
“modify” his execution date. It is true, as LeCroy says, that 28 C.F.R. §§ 26.3 and
26.4 prescribe a role for the judiciary in setting execution dates. See 28 C.F.R.
§ 26.3(a) (“Except to the extent a court orders otherwise, a sentence of death shall
be executed . . . .”); id. § 26.4 (“Except to the extent a court orders otherwise . . .
.”). As does the Bureau of Prisons Execution Protocol. See Department of Justice,
Bureau of Prisons Execution Protocol 5 (2004) (“If the execution date is set by a
6
Appendix A

6a

Case: 20-13353

Date Filed: 09/16/2020

Page: 7 of 12

judge, the Warden will notify the condemned individual, in writing, as soon as
possible.”). It may well be, as LeCroy asserts, that both these regulations and the
Protocol reflect an understanding that courts historically played some concurrent
role in—had some shared responsibility for—setting execution dates in the first
instance. Cf. United States v. Lee, No. 4:97-cr-00243, 2020 WL 3921174, at *3
(E.D. Ark. July 10, 2020). And at the very least, the regulations and the Protocol
sensibly recognize—as they must—a court’s authority to stay or enjoin a scheduled
execution. But we are confident that they do not vest courts with a free-floating,
standardless reservoir of authority to postpone an already-scheduled execution,
free and clear of the traditional stay standard. If they did, no death-sentenced
inmate would ever again go to the trouble of trying to satisfy the stay factors. That
cannot be the law.
Nor does the All Writs Act, which LeCroy invokes alongside §§ 26.3 and
26.4 and the Protocol, independently authorize a federal court to modify his
execution date—independently, we mean, of a showing that the traditional stay
factors have been satisfied. The Act establishes that “[t]he Supreme Court and all
courts established by Act of Congress may issue all writs necessary or appropriate
in aid of their respective jurisdictions and agreeable to the usages and principles of
law.” 28 U.S.C. § 1651(a). This Court, though, has carefully confined the Act’s
office to “extraordinary circumstances.” United States v. Machado, 465 F.3d
7
Appendix A

7a

Case: 20-13353

Date Filed: 09/16/2020

Page: 8 of 12

1301, 1308 (11th Cir. 2006), overruled on other grounds by United States v. Lopez,
562 F.3d 1309, 1311 (11th Cir. 2009). Moreover, the Act does not absolve LeCroy
of his responsibility to make the showing necessary to obtain a stay. See Dunn v.
McNabb, 138 S. Ct. 369, 369 (2017) (observing that the All Writs Act “does not
excuse a court from making” injunction- or stay-related related findings); see also
Schiavo ex rel. Schindler v. Schiavo, 403 F.3d 1223, 1229 (11th Cir. 2005) (“Under
our circuit law, the All Writs Act cannot be used to evade the requirements for
preliminary injunctions.”).1
LeCroy has not even attempted to satisfy the requirements necessary to stay
his execution—even temporarily—and he has identified no authority that would
otherwise permit a federal court to “reset” or “modify” his execution date.
Accordingly, we hold that the district court correctly concluded that it lacked the
authority to postpone LeCroy’s execution.2

1

LeCroy separately argues that the All Writs Act protects the court’s jurisdiction under 18
U.S.C. § 3599 to appoint counsel. We disagree. Section 3599 does not imbue the court with
continuing authority or jurisdiction that the Act may then be invoked to protect. See Baze v.
Parker, 632 F.3d 338, 346 (6th Cir. 2011) (“Because the only jurisdictional power granted to the
district court by section 3599 is the power to appoint attorneys and oversee the release of federal
funds to those attorneys, the relief that Baze seeks here is not ‘in aid of’ the district court’s
preexisting jurisdiction under section 3599 and is thus outside the scope of the All Writs Act.”).
2

Even if LeCroy’s request were more properly viewed as a request for an injunction, rather than
a stay, the same result would obtain. LeCroy must still satisfy the traditional requirements for
obtaining an injunction. See Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24 (2008) (“A
preliminary injunction is an extraordinary remedy never awarded as of right.”); Swain v. Junior,
961 F.3d 1276, 1284 (11th Cir. 2020) (same). The All Writs Act does not excuse LeCroy from
satisfying these requirements. Schiavo, 403 F.3d at 1229.
8
Appendix A

8a

Case: 20-13353

Date Filed: 09/16/2020

Page: 9 of 12

III
LeCroy is not entitled to the relief he seeks, in any event. Before the district
court and in this Court, LeCroy has asserted two grounds for postponing his
execution: (1) two of his three appointed lawyers are currently unable to meet with
him face-to-face to assist in the preparation and filing of a clemency petition; and
(2) two of his three appointed lawyers are currently unable to be on hand in person
to witness his scheduled execution.
As an initial matter, we reiterate our “consistent[ holding] that there is no
federal constitutional right to counsel in postconviction proceedings.” Barbour v.
Haley, 471 F.3d 1222, 1227 (11th Cir. 2006). Nor (for better or worse) does the
Constitution guarantee a condemned inmate the right to have his lawyer present at
his execution. If LeCroy is entitled to relief, therefore, it must be on the basis of
some statute or regulation.
Before the district court, LeCroy first asserted that he had a statutory right to
assistance with his clemency petition under 18 U.S.C. § 3599(e). That statute
provides that appointed counsel
shall represent the defendant throughout every subsequent stage of
available judicial proceedings, including pretrial proceedings, trial,
sentencing, motions for new trial, appeals, applications for writ of
certiorari to the Supreme Court of the United States, and all available
post-conviction process, together with applications for stays of
execution and other appropriate motions and procedures, and shall also
represent the defendant in such competency proceedings and
9
Appendix A

9a

Case: 20-13353

Date Filed: 09/16/2020

Page: 10 of 12

proceedings for executive or other clemency as may be available to the
defendant.
18 U.S.C. § 3599(e) (emphasis added). The problems for LeCroy are (1) that
nothing in § 3599(e) specifies in-person representation and (2) that, despite the
heightened risks that COVID-19 poses for two of his three appointed lawyers, he
still has ready access to the “represent[ation]” that § 3599(e) contemplates. Not
only can LeCroy avail himself of unmonitored telephone calls and face-to-face
videoconferences with all three of his lawyers, but he can also meet with one of
them, Ferrell, in person at the prison.3
Both before the district court and in this Court, LeCroy has separately
pointed to 18 U.S.C. § 3596(a) in support of his argument that his attorney must be
on hand to personally witness his execution. Section 3596(a) states that an
execution shall be implemented “in the manner prescribed by the law of the State
in which the sentence is imposed.” This provision, LeCroy contends, incorporates
Ga. Code Ann. § 17-10-41, which states that “the convicted person may request the
presence of his or her counsel.” In support of this argument, LeCroy cites In re
Federal Bureau of Prisons’ Execution Protocol Cases, 955 F.3d 106 (D.C. Cir.
2020).

3

Nothing in the record indicates that COVID-19 poses any unique (or even heightened) risk to
Ferrell.
10
Appendix A

10a

Case: 20-13353

Date Filed: 09/16/2020

Page: 11 of 12

Although the separate opinions in Execution Protocol Cases posit varying
interpretations of § 3596(a), even the dissenting opinion there—which embraced
the most capacious reading—acknowledged that § 3596(a) requires the Bureau to
follow only those state execution procedures that “effectuat[e] the death, . . .
including choice of lethal substances, dosages, vein-access procedures, and
medical-personnel requirements.” Id. at 151 (Tatel, J., dissenting) (alterations and
citations omitted). Other circuits have interpreted § 3596(a) in a similarly (if not
more) restrictive manner. See, e.g., United States v. Mitchell, No. 20-99009, 2020
WL 4815961, at *2–3 (9th Cir. Aug. 19, 2020); Peterson v. Barr, 965 F.3d 549,
554 (7th Cir. 2020) (“We do not understand the word ‘manner’ as used in
§ 3596(a) to refer to details such as witnesses. The word concerns how the
sentence is carried out, not who watches.”). We needn’t decide today precisely
what the phrase “in the manner prescribed by the law of the State in which the
sentence is imposed” entails—whether it refers only to top-line methods, execution
procedures more generally, etc. Whatever that phrase means, we are confident that
it does not extend to ensuring a lawyer’s presence at execution.
Accordingly, we hold that even if this Court had the authority to postpone
LeCroy’s execution date absent a showing that a stay is warranted, LeCroy is not
entitled to relief on the merits.

11
Appendix A

11a

Case: 20-13353

Date Filed: 09/16/2020

Page: 12 of 12

IV
For the foregoing reasons, we affirm the judgment of the district court.
AFFIRMED.

12
Appendix A

12a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 1 of 19

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
GAINESVILLE DIVISION
UNITED STATES OF AMERICA

Criminal Action No.

v.

2:02-CR-38-RWS

WILLIAM EMMETT LECROY, JR.,

2:08-CV-83-RWS
[Capital Case]

Defendant/Petitioner.
ORDER
This case comes before the Court on Defendant-Petitioner William Emmett
LeCroy, Jr.’s “Motion To Reset Or Modify Execution Date In Order To Implement
Court’s Order Appointing Counsel” (“Motion”) [Doc. 593], filed August 24, 2020,
the United States’ Response in Opposition [Doc. 598], filed August 28, 2020, and
“Notice of Defendant’s Submission of Clemency Petition” [Doc. 599], filed
August 31, 2020.
LeCroy is a federal death row inmate imprisoned at the United States
Penitentiary (“USP”), in Terre Haute, Indiana, which lies within the Southern
District of Indiana (and the Seventh Circuit Court of Appeals). LeCroy was
prosecuted in the Northern District of Georgia, with the undersigned presiding over
the jury trial, including the penalty phase, as well as post-trial litigation and post-

Appendix B

13a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 2 of 19

conviction habeas proceedings. On August 1, 2020, the United States filed a
“Notice Regarding Execution Date” advising that the Director of the Federal
Bureau of Prisons (“BOP”), upon the direction of the Attorney General, has
scheduled the execution of William Emmett LeCroy, Jr., in accordance with 28
C.F.R. Part 26, to take place on September 22, 2020, prompting the instant Motion.
[Doc. 591].
In the Motion, counsel for LeCroy assert that the Court should “reset” or
“modify” the execution date to allow counsel to fulfill the duties they were
appointed to perform pursuant to 18 U.S.C. § 3599. [Motion at 1]. 1 Lead counsel
for LeCroy makes this request based on chronic health conditions and the global
COVID-19 pandemic, which, taken together, preclude him from attending the
execution as requested by LeCroy.2 [Motion at 3-5]. Counsel request that the

1

Defense counsel cite this Court’s May 25, 2007 Order (“Appointment Order”) [Doc.
479], appointing and assigning counsel the duties of “providing effective legal and
investigative assistance to their client in preparation for clemency proceedings and other
possible legal challenges, including being present for the client and giving him counsel at
the time of his execution.” [Motion at 1-2].
2

LeCroy has three attorneys of record, John R. Martin (“Lead Counsel” or “Martin”),
Sandra Michaels (“Michaels”), who is Martin’s spouse, and Stephen Ferrell (“Ferrell”) of
the Federal Defender Services of Eastern Tennessee, Inc. (“FDSET”) (collectively
“Counsel”). Ferrell was appointed in January 2019 [Doc. 584] and, thus, has less history
with LeCroy than either Martin or Michaels.

2
Appendix B

14a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 3 of 19

execution be postponed until the Spring of 2021 or “until sometime after a vaccine
is available” for COVID-19. [Motion at 6].
The United States opposes the Motion on multiple grounds, including that
the Motion, as presently styled, is not properly before this Court. [Doc. 598].
Alternatively, the United States argues that to grant this relief absent identification
of a violation of any constitutional or statutory right or court order would constitute
an abuse of discretion.
A hearing was held on September 2, 2020 to provide the parties with an
opportunity for oral argument.3
Having reviewed the record and considered the arguments of counsel, the
Court enters the following Order.
BACKGROUND
The underlying facts, which are not disputed, are summarized by the
Eleventh Circuit’s decision of March 2, 2006, affirming the conviction and
sentence, and need not be repeated here. [Doc. 472 – United States v. LeCroy, 441
F.3d 914 (11th Cir. 2006)]. In sum, on October 7, 2001, LeCroy broke into the
home of Joann Tiesler, raped and murdered her, and fled in her car to the Canadian

3

The hearing was conducted via Zoom.gov video conferencing consistent with the
parties’ stated preference.

3
Appendix B

15a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 4 of 19

border, where he was arrested two days later. He was indicted on a single count of
violating 18 U.S.C. § 2119(3) (carjacking), namely, taking a motor vehicle that had
been transported, shipped, and received in interstate commerce, with the intent to
cause death and serious bodily harm, from the person and presence of Joann Lee
Tiesler by force and violence resulting in her death. [Docs. 1, 32].
The case was tried before a jury in 2004 (February 17, 2004 thru March 10,
2004). The jury returned a verdict of guilty on March 1, 2004. [Doc. 398].
Following the penalty phase, on March 10, 2004, the jury issued a special verdict
in favor of a death sentence. [Doc. 414]. The Judgment and Commitment Order
(“J&C”) was entered pursuant to the jury’s special verdict on March 11, 2004.
[Doc. 417]. The J&C expressly provided that the Attorney General and United
States Marshal “shall make the arrangements for the execution and supervise
implementation of the sentence.” [Doc. 417]. LeCroy moved for a new trial and
the motion was denied. [Docs. 420, 445].
On direct appeal, LeCroy’s conviction and sentence were affirmed by the
Eleventh Circuit Court of Appeals. [Docs. 448, 472]. His petition for rehearing en
banc was likewise denied. [Doc. 473].
LeCroy’s post-conviction collateral attack asserting various constitutional
challenges to his conviction and sentence was unsuccessful. On April 22, 2008,
4
Appendix B

16a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 5 of 19

LeCroy filed a Motion to Vacate, Set Aside or Correct Sentence, pursuant to 28
U.S.C. § 2255. [Doc. 493]. This Court denied relief following an evidentiary
hearing lasting three days. [Doc. 551]. LeCroy appealed and the appellate court
issued a certificate of appealability. [Docs. 555, 564]. On January 15, 2004, the
Eleventh Circuit affirmed this Court’s denial of LeCroy’s Section 2255 Motion.
[Doc. 573]. The Eleventh Circuit’s mandate issued March 17, 2014. [Doc. 574].
The Court was notified on March 11, 2015, that the Supreme Court denied
certiorari, at which time LeCroy’s conviction became final. [Doc. 576]. And see
Washington v. United States, 243 F.3d 1299, 1300-01 (11th Cir. 2001).
LeCroy has submitted one prior clemency petition. [Doc. 598 at 8-9]. In
December 2016, LeCroy filed an application for executive clemency. [Doc. 598,
Exhibit 1- Declaration of Kira Gillespie (“Gillespie Declaration”) ¶ 5]. On January
20, 2017, LeCroy requested to withdraw his petition, and the Office of the Pardon
Attorney administratively closed LeCroy’s clemency petition without prejudice on
January 24, 2017. [Gillespie Declaration ¶ 5].
On August 28, 2020, counsel for LeCroy filed a renewed petition for
clemency seeking commutation of his death sentence with the Department of
Justice’s Office of Pardon Attorney. [Doc. 599].

5
Appendix B

17a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 6 of 19

As discussed supra, LeCroy has fully exhausted all avenues of relief for
asserting substantive challenges to his conviction and sentence. Procedurally, this
case has been in a posture for execution since 2015. As stated by counsel for the
Government during the hearing, for reasons unrelated to LeCroy’s case, the
Department of Justice resumed capital executions at some point in 2019, and
September 22, 2020 is LeCroy’s first scheduled date of execution. He filed this
Motion shortly after the execution was announced.
DISCUSSION
LeCroy argues that, under the All Writs Act, 28 U.S.C. § 1651(a) (“AWA”),
this Court may (and should) intervene to enforce its Order Appointing Counsel
(“Appointment Order”). [Doc. 578, 580]. LeCroy bases his request on the exigent
circumstances presented by the coronavirus pandemic, which restricts the ability of
his Lead Counsel to attend the execution on September 22, 2020. LeCroy asks the
Court to provide for a delay such that his Lead Counsel may attend the execution.
The Court begins with its authority to reset an execution date.
I.

Authority to Entertain Defendant’s Motion
According to LeCroy, this Court has the authority to reset his execution date

in accordance with the Federal Death Penalty Act, 18 U.S.C. §§ 3591, et seq.
(“FDPA”), and 28 C.F.R. § 26.3(a) to allow for counsel’s appointment to be
6
Appendix B

18a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 7 of 19

meaningful. 4 The Court concludes, as a general matter, that it has the authority to
fix the date of execution if it chooses to do so. However, given the posture of the
case, the All Writs Act cannot provide redressability for LeCroy.
A.

The Federal Death Penalty Act

LeCroy was sentenced to death pursuant to FDPA, 18 U.S.C. §§ 3591, et
seq. Section 3596 governs implementation of the sentence and provides in part:
A person who has been sentenced to death pursuant to this chapter shall
be committed to the custody of the Attorney General until exhaustion
of the procedures for appeal of the judgment of conviction and for
review of the sentence. When the sentence is to be implemented, the
Attorney General shall release the person sentenced to death to the
custody of a United States marshal, who shall supervise implementation
of the sentence in the manner prescribed by the law of the State in which
the sentence is imposed. . . .
18 U.S.C. § 3596(a) (1994). For purposes of Section 3596(a), “the State in which
the sentence is imposed” for purposes of § 3596(a) of the FDPA is that of the
sentencing court. United States v. Battle, 173 F.3d 1343, 1350 (11th Cir. 1999);
see also United States v. Bourgeois, 423 F.3d 501, 509 (5th Cir. 2005); United
States v. Hammer, 121 F. Supp. 2d 794, 798 (M.D. Pa. 2000) (citing 18 U.S.C.
§ 3595(a) and (c)) (“The term ‘imposed’ throughout the federal death penalty

4

LeCroy also points to the BOP Execution Protocol. [Doc. 593 at 7 (citing Roane et.
al. v. Barr, 1:19-mc-00145-TSC, at 0874, 0883, 0915 (D.D.C. Aug. 30, 2019))].

7
Appendix B

19a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 8 of 19

statute relates to the adjudication by the court and not the actual infliction of the
punishment”). Here, imposition of sentence occurred in the State of Georgia, in
the Northern District of Georgia. See O.C.G.A. § 17-10-38(a).
As noted, LeCroy has exhausted the procedures for appeal of the judgment
of conviction and for review of his sentence and steps have been taken to
implement the sentence.
B.

Regulations Governing Implementation of Sentence

Subsection (a) of the applicable federal regulation, entitled, “Date, Time,
Place, and Method of Execution,” reads in pertinent part:
Except to the extent a court orders otherwise, a sentence of death shall
be executed: (1) On a date and at a time designated by the Director of
the Federal Bureau of Prisons . . . . If the date designated for execution
passes by reason of a stay of execution, then a new date shall be
designated promptly by the Director of the Federal Bureau of Prisons
when the stay is lifted[.] . . .
28 C.F.R. § 26.3(a)(1) (2008) (emphasis added). Similarly, Subsection 26.4(c)
speaks to who may be present at the execution and begins with the caveat, “Except
to the extent a court orders otherwise . . . .” 28 C.F.R. § 26.4(c) (emphasis added).
C.

Analysis

As an initial matter, the parties agree that the Executive and Judicial
Branches share jurisdiction over implementation of the FDCPA sentence, and that
Congress does not prescribe the rules for fixing the date of execution. See
8
Appendix B

20a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 9 of 19

Bucklew v. Precythe, 139 S. Ct. 1112, 1122 (2019); see also Holden v. State of
Minnesota, 11 S. Ct. 143, 147–48 (1890); and see Bourgeois, 423 F.3d at 509.
Based upon the regulation language expressly contemplating Court action
(“[e]xcept to the extent a court orders otherwise”), LeCroy argues that an Order
from this Court would supersede any action taken by the Executive Branch; that
the sentencing court’s authority is superior to the power of the Executive Branch.
On the other hand, the Government contends that “the ‘except’ clause [within the
1993 regulations] is merely a recognition that both the Judiciary and the Executive
Branch have authority to set a date during the implementation of a capital
sentence” but does not afford the Court unbridled discretion once a date of
execution has been set. [Doc. 598 at 15].
As stated previously, the Court delegated the authority to implement or carry
out the sentence to the Attorney General in its J&C, which expressly provided that
the Attorney General and United States Marshal “shall make the arrangements for
the execution and supervise implementation of the sentence.” [Doc. 417]. That
the Court did not elect to take on the initial responsibility for setting the date of
execution when imposing judgment is significant. More importantly, the execution
has already been assigned a date certain and set for September 22, 2020 by the
Attorney General.
9
Appendix B

21a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 10 of 19

The Government contends that, once the execution date is set, the only
mechanism for delaying execution is by pursuing equitable relief such as seeking a
stay of execution or an injunction, which places a higher burden on LeCroy. See,
e.g., Hill v. McDonough, 126 S. Ct. 2096, 2104 (2016). As discussed in greater
detail below, the Government’s statement of the law is correct. If the Court were
amenable to LeCroy’s request and inclined to “reset” or “modify” the date of
execution, granting the requested relief (i.e., continue or postpone execution)
would amount to a stay.
Yet, the Motion explicitly denies that LeCroy is seeking a stay or injunction.
[Motion at 2, 8]. As noted, LeCroy suggests:
[A]n order from this Court setting or modifying Mr. LeCroy’s
execution would not be a stay or an injunction. Because the
Government’s regulations are conditioned upon this Court’s action,
issuance of an order setting a different execution date does not enjoin a
government action; it instead renders the BOP date-setting regulations,
by their own terms, non-operational.
[Motion at 8 (citing 28 C.F.R. § 26.3; 28 C.F.R. § 26.4)]. In the current posture of
the case, with an imminent execution date set, the Court disagrees that setting a
different execution date merely “renders BOP date-setting regulations nonoperational.”
And, as discussed below, LeCroy cannot achieve what he seeks by
attempting to invoke the Court’s authority under the All Writs Act.
10
Appendix B

22a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 11 of 19

II.

Defendant LeCroy’s Motion to Reset the Execution Date
As stated above, LeCroy’s Motion does not seek a stay; instead he seeks for

the Court to enforce its Appointment Order through the All Writs Act.
A.

All Writs Act

Pursuant to the All Writs Act, 28 U.S.C. § 1651, the Court “may issue all
writs necessary or appropriate in aid of their respective jurisdictions and agreeable
to the usages and principles of law.” 28 U.S.C. § 1651(a). “The purpose of the
power codified in [Section 1651] is to allow courts ‘to protect the jurisdiction they
already have, derived from some other source.’” Schiavo ex rel. Schindler v.
Schiavo, 403 F.3d 1223, 1229 (11th Cir. 2005) (citation omitted); see generally
Baze v. Parker, 711 F. Supp. 2d 774, 779 (E.D. Ky. 2010) (in context of state
clemency proceeding, finding lack of jurisdiction where habeas proceedings had
concluded, and noting “[w]ithout the underlying habeas jurisdiction under 28
U.S.C. § 2254, the Court lacks any independent jurisdiction over this litigation, and
thus cannot invoke the All Writs Act to grant relief “in aid of [its] respective
jurisdiction. . . .”), aff’d, 632 F.3d 338 (6th Cir. 2011). The AWA “is an
extraordinary remedy that . . . is essentially equitable and, as such, not generally
available to provide alternatives to other, adequate remedies at law.” Schiavo, 403
F.3d 1223 at 1229. (citation and internal quotation marks omitted).
11
Appendix B

23a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 12 of 19

B.

Appointment Order

LeCroy invokes the AWA and asks the Court to enforce its Order
Appointing Counsel as his basis for relief. The Court’s Appointment Order issued
pursuant to Title 18, United States Code, Section 3599, which requires that LeCroy
be provided with assistance of counsel “throughout every subsequent stage of
available judicial proceedings, . . . [including] applications for stays of execution
and other appropriate motions and procedures, . . . competency proceedings and
proceedings for executive or other clemency as may be available to the defendant.”
18 U.S.C. §3599(e); see also Harbison v. Bell, 129 S. Ct. 1481, 1486 (2009).
LeCroy contends that the statute—and the attendant regulations 5—require the
presence of his choice of counsel—here, Lead Counsel—at the execution itself.
At the hearing, Lead Counsel for LeCroy explained the importance of his
presence at the execution. It is, he contends, the “near-sacred duty of appointed

Pursuant to 28 C.F.R § 26.4(c), “[i]n addition to the Marshal and the Warden, the
following persons shall be present at the execution:
5

(3) Not more than the following numbers of persons selected by the
prisoner[, including]:
(ii) Two defense attorneys[.] . . .”
28 U.S.C. § 26.4(c)(3)(ii) (2008).

12
Appendix B

24a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 13 of 19

counsel, particularly appointed counsel who has a long-standing relationship of
confidence and trust with the client.” [Declaration of Carol A. Wright, Chief of the
Capital Habeas Unit for the Middle District of Florida, Doc. 593, Exhibit 2 at
¶¶ 26–27].
Lead Counsel asserts that the exigent circumstances created by the pandemic
interfere with his ability to fulfill his professional duties.
C.

Exigent Circumstances Due to COVID-19

The coronavirus pandemic has significantly altered the judicial operations of
the Northern District of Georgia and has created an unusual environment in which
the Court seeks to continue its work in new and novel ways, as illustrated by the
video hearing held in this case. Although the Court is learning to adapt, not unlike
other agencies, entities, and individuals tasked with essential work, the pandemic
presents hardships on all who work within the judicial system. But to the extent
reasonably possible, the work of the judicial system continues.6
Evidence has been presented that the BOP is considering accommodations to
their modified COVID-19 restricted operations on a case-by-case basis, and that

See generally, United States v. Lee, 2020 WL 3921174, at *5 (E.D. Ark. July 10, 2020)
(refusing the postpone execution date due to pandemic on distinguishable and less
compelling facts; recognizing that Congress has not seen fit to suspend federal executions
and declining to substitute its own judgment for that of Executive Branch).
6

13
Appendix B

25a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 14 of 19

there are alternatives for counsel short of being physically present for in-person
meetings at the prison leading up to the date of execution. [Doc. 598, Exhibit 2 –
Declaration of Tom Watson (“Watson Declaration”)].
However, the record does not include documentation of any specific requests
made by counsel to assist in carrying out professional obligations during BOP’s
modified operations and/or in light of Lead Counsel’s health concerns. 7
Significantly, Counsel do not assert that they are unable to pursue relief on
LeCroy’s behalf and have, in fact, filed a renewed clemency petition and requested
oral argument via videoconference. [Doc. 599].
Nevertheless, Lead Counsel requests the Court reset the execution date so
that he can fulfill his obligations under the Appointment Order.
D.

The AWA Does Not Excuse LeCroy From Seeking a Stay

Invoking the All Writs Act does not excuse a movant from making a
showing that a stay or injunction, if sought, is warranted. Dunn v. McNabb, 138 S.
Ct. 369 (2017) (quoting Hill, 126 S. Ct. at 2104) (vacating injunction enjoining
execution issued by trial court, and stating, “The All Writs Act does not excuse a
7

According to the BOP, the only in-person visit to be scheduled by one of the defense
team (Ferrell) was to be accommodated but was cancelled. [Watson Declaration ¶ 5].
Unmonitored video conferencing is also available (since mid-July) and no requests have
been made by counsel. [Watson Declaration ¶ 8]. BOP reports that Lecroy has had ten
unmonitored telephone calls with counsel since March 2020. [Watson Declaration ¶ 7].

14
Appendix B

26a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 15 of 19

court from . . . finding that [prisoner] has a significant possibility of success on the
merits. . . .”); accord Schiavo, 403 F.3d at 1229 (“[T]he All Writs Act cannot be
used to evade the requirements for . . . injunctions”) (citations omitted).8
The Supreme Court teaches that, regardless of the legal vehicle, “inmates
seeking time to challenge the manner in which the State plans to execute them
must satisfy all of the requirements for a stay, including a showing of a significant
possibility of success on the merits.” Hill, 126 S. Ct. at 2104 (state death row
inmate seeking to bring constitutional challenge to method of execution as civil
rights action pursuant to 42 U.S.C. § 1983 was not entitled to stay of execution as
matter of course); accord Grayson v. Allen, 491 F.3d 1318, 1322 (11th Cir. 2007);
and see Lee v. Warden USP Terre Haute, 2019 WL 6608724, at *3, 9-11 (S.D. Ind.
December 5, 2019) (“standards governing preliminary injunctions apply to motions
to stay executions in habeas proceedings”) (citations omitted).

8

The Eleventh Circuit’s ruling in Schiavo makes clear that, notwithstanding “legal
decisions affecting life or death[,] . . . where the relief sought is in essence a preliminary
injunction [a stay], the All Writs Act is not available because other, adequate remedies at
law exist[.] Schiavo, 403 F.3d at 1226, 1228-29 (refusing to authorize emergency
injunctive relief under All Writs Act pending appeal where trial court’s denial of
injunctive relief – and not overturn medical decision to withdraw life sustaining measures
of patient – was not an abuse of discretion and given that likelihood of success on merits
was also required under AWA).

15
Appendix B

27a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 16 of 19

“Injunctive relief is an equitable remedy that is not available as a matter of
right.” Grayson, 491 F.3d at 1322. A stay of execution may be granted only “if
the movant establishes that (1) he has a substantial likelihood of success on the
merits, (2) he will suffer irreparable injury unless the injunction issues, (3) the
injunction would not substantially harm the other litigant, and (4) if issued, the
injunction would not be adverse to the public interest.” Long v. Secretary, Dep’t
of Corr., 924 F.3d 1171, 1176 (11th Cir.) (citing, inter alia, Powell v. Thomas, 641
F.3d 1255, 1257 (11th Cir. 2011)), cert. denied sub nom. Long v. Inch, 139 S. Ct.
2635 (2019); see generally Schiavo, 403 F.3d at 1226 (reiterating that “injunctive
relief may not be granted unless the plaintiff establishes the substantial likelihood
of success criterion”).
In this case, as is evident from these proceedings, LeCroy has three highly
capable attorneys appointed to represent him. The interests being asserted by Lead
Counsel for LeCroy and his wish to fulfill his professional and ethical obligation to
his client, to honor LeCroy’s request that he be present for the execution, are not
only sincere but undoubtedly weighty. Counsel’s impassioned plea that the Court
should reset the execution date in order to accommodate this wish is compelling.
To be sure, LeCroy’s defense team has earned the respect of the Court.

16
Appendix B

28a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 17 of 19

But no matter how Counsel seeks to package it, the factual basis for the
Motion and the nature (and effect) of the relief being sought reveal that LeCroy
actually seeks a stay of execution. “[A] stay operates upon the judicial proceeding
itself. It does so either by halting or postponing some portion of the proceeding, or
by temporarily divesting an order of enforceability.” Nken v. Holder, 129 S. Ct.
1749, 1758 (2009) (recognizing functional overlap and distinctions between an
injunction and a stay within context of deciding standard for stay pending judicial
review of removal order under alien removal statute) (citation omitted; emphasis
provided). A stay is exactly what LeCroy’s Motion requests – he asks the Court to
postpone his execution in light of the pandemic and limitations of Lead Counsel.
Although presented within a different statutory scheme, in Nken, the Supreme
Court rejected the argument that relief was available under the AWA and held that
“traditional stay factors” had to be established before relief could be granted.
Nken, 129 S. Ct. at 1756-58.
The undersigned, like the Schiavo majority, acknowledges the emotional
appeal of Counsel’s AWA argument, but is constrained to decide the issue based
on the controlling law. The Court concludes that what LeCroy actually seeks in his
Motion is a stay of execution. He seeks this relief because of the pandemic and the
fact that his longest-serving Lead Counsel and attorney of choice cannot be
17
Appendix B

29a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 18 of 19

physically present for the execution in this environment. The Court believes
LeCroy’s Motion and Counsel’s request to be genuine and compelling.
However, LeCroy has no pending habeas action, and his clemency petition is
before the Department of Justice’s Office of Pardon Attorney, also part of the
Executive Branch. In addition, LeCroy has not moved for a stay of execution and
has not attempted to satisfy the traditional criteria for imposing a stay.
As discussed supra, the All Writs Act does not confer jurisdiction not
otherwise established. Because the Court cannot reconcile LeCroy’s claim (that
the requested relief would not amount to stay of execution) with the controlling
law, and because LeCroy has not moved for a stay, LeCroy’s request is not
redressable by The All Writs Act.9
If relief is ultimately sought by LeCroy via the appropriate vehicle and
presented in a proper forum, the arguments advanced here may yield a different
result. 10

9

Given its ruling, the Court need not reach or discuss LeCroy’s arguments under 28
U.S.C. § 26.4(c) and O.C.G.A. § 17-10-41.
10

The Court is not convinced that Defendant’s request does not solely implicate
execution of the sentence and require a habeas action in the Southern District of Indiana.
“[C]hallenges to the execution of a sentence, rather than the validity of the sentence itself,
are properly brought under [28 U.S.C.] § 2241. Antonelli v. Warden, U.S.P. Atlanta, 542
F.3d 1348, 1352 (11th Cir. 2008) (citing Bishop v. Reno, 210 F.3d 1295, 1304 (11th Cir.
2000)).

18
Appendix B

30a

Case 2:02-cr-00038-RWS-JCF Document 601 Filed 09/04/20 Page 19 of 19

CONCLUSION
For all of these reasons, it is hereby ORDERED that the Defendant
LeCroy’s “Motion To Reset Or Modify Execution Date In Order To Implement
Court’s Order Appointing Counsel” [Doc. 593] is DENIED.
SO ORDERED this 4th day of September, 2020.

________________________________
RICHARD W. STORY
United States District Judge

19
Appendix B

31a

Case: 20-13353

Date Filed:
(1 of 2)
09/21/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________________________
No. 20-13353-P
_________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
WILLIAM EMMETT LECROY, JR.,
Defendant - Appellant.
__________________________
On Appeal from the United States District Court for the
Northern District of Georgia
__________________________
BEFORE: WILLIAM PRYOR, Chief Judge, NEWSOM, and LUCK, Circuit Judges.
BY THE COURT:
Appellant’s motion to stay execution pending the Court’s review of his petition for
rehearing en banc is DENIED because he has not made the requisite showing. See Nken v.
Holder, 556 U.S. 418, 434 (2009).

Appendix C

32a

Case: 20-13353

Date Filed: 09/22/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-13353-P
________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
WILLIAM EMMETT LECROY, JR.,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, Chief Judge, NEWSOM, and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

Appendix D

33a

